Ogilvie & Brewer LLP
September 30, 2020

Via Overnight Delivery
Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: TransUnion, LLC v. Ramirez, No. 20-297
Dear Mr. Bickell:
I am counsel for respondent in the above-referenced case. On September 8, 2020,
a certiorari petition was docketed in this case, and unless extended by the Court, the
response would be due on October 8, 2020. Pursuant to Rule 30.4 of the Rules of this
Court, I respectfully request an extension of 29 days, to and including November 6, 2020.
This is Respondent’s first request for an extension.
Thank you for your attention to this matter. Please do not hesitate to contact me
with any questions.
Sincerely,

Andrew J. Ogilvie
Counsel for Respondent

Cc: Paul D. Clement, Counsel for Petitioner

3450 Sacramento St., #413
San Francisco, CA 94118
Tel. 415.378.4838

